a
I

C@OCKLE

: E-Mail Address:
Legal Briefs contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214
Est. 1923

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 20-361

JAMES COURTNEY AND CLIFFORD COURTNEY,
Petitioners,
v.

DAVID DANNER, IN HIS OFFICIAL CAPACITY
AS CHAIRMAN AND COMMISSIONER OF
THE WASHINGTON UTILITIES AND
TRANSPORTATION COMMISSION, ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the REPLY BRIEF FOR
PETITIONERS in the above entitled case complies with the typeface requirement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2992 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of December, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL HOTARY-State of Nebraska ) / Ws Chie
RENEE J. GOSS 9. °
Ee My Comm. _

Affiant

». September 5, 2023

 

 

Notary Public
40424
